<html>
<title> - CLIMATE CHANGE AND THE AGRICULTURE SECTOR</title>
<body><pre>[Senate Hearing 116-129]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-129

                           CLIMATE CHANGE AND
                         THE AGRICULTURE SECTOR

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-311 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       
       
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                         Tuesday, May 21, 2019

                                                                   Page

Hearing:

Climate Change and the Agriculture Sector........................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                               WITNESSES

Lyons-Blythe, Debbie, Blythe Family Farms, White City, Kansas....     5
Mitloehner, Frank, Ph.D., Professor, Department of Animal 
  Science, University of California, Davis, Davis, California....     7
Rezac, Matthew, Rezac Farms, Weston, Nebraska....................     9
Vilsack, Hon. Thomas J., President and Chief Executive Officer, 
  U.S. Dairy Export Council, Arlington, Virginia.................    12
  
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lyons-Blythe, Debbie.........................................    38
    Mitloehner, Frank............................................    43
    Rezac, Matthew...............................................    50
    Vilsack, Hon. Thomas J.......................................    54

Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    Climate Change and the Agriculture Sector, American Coalition 
      for Ethanol................................................    62
    John Larson, Senior Vice President, American Farmland Trust..    64
    Earth Justice................................................    67
    Paul T. Dacier, Executive Vice President and General Counsel, 
      Indigo Agriculture, Inc....................................    70
    The National Young Farmers Coalition.........................    78
    The Plant Based Products Council.............................    80
    National Sustainable Agriculture Coalition...................    81
    Abby Youngblood, Executive Director, National Organic 
      Coalition..................................................    84
    Roger Johnson, President, National Farmers Union.............    88
Robert, Hon. Casey P., Jr.:
    U.S. Policy Roadmap, Center for Strategic and International 
      Studies....................................................    96

Question and Answer:
Lyons-Blythe, Debbie:
    Written response to questions from Hon. Pat Roberts..........   108
    Written response to questions from Hon. Debbie Stabenow......   110
Mitloehner, Frank:
    Written response to questions from Hon. Pat Roberts..........   113
    Written response to questions from Hon. Debbie Stabenow......   118
Rezac, Matthew:
    Written response to questions from Hon. Pat Roberts..........   121
    Written response to questions from Hon. Debbie Stabenow......   122
Vilsack, Hon. Thomas J.:
    Written response to questions from Hon. Pat Roberts..........   124
    Written response to questions from Hon. Debbie Stabenow......   125

 
               CLIMATE CHANGE AND THE AGRICULTURE SECTOR

                              ----------                              


                         TUESDAY, MAY 21, 2019

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Ernst, Braun, Perdue, Thune, Fischer, Stabenow, Brown, 
Klobuchar, Bennet, Casey, Smith and Durbin.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this hearing of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order. Today we will hear from a most knowledgeable panel on 
climate change and the agriculture sector.
    Maintaining the health of our planet for future generations 
is, of course, of paramount importance, but so is feeding the 
billions of people that populate the earth today and in the 
years ahead. These topics and how they interact is complex and 
we are pleased to have this discussion at the Agriculture 
Committee, whose constituency plays an important role in 
meeting those challenges.
    America's farmers and ranchers are continually learning and 
evolving in order to improve agriculture production 
efficiencies and to conserve natural resources, increase 
resiliency to Mother Nature, and to maintain a profitable 
business.
    Today, obviously, farmers do not produce food in the same 
manner as previous generations over time. Advancements in 
science and technology have provided farmers the ability to 
produce more food, feed, and fiber while using less inputs and 
resources. Farming practices from a generation ago were not 
sustainable to produce food at the scope and scale needed to 
feed today's growing and hungry population around the globe.
    The U.S. agriculture sector should be proud of the 
accomplishments that have been made through voluntary efforts 
to address environmental sustainability. I will say that 
again--voluntary efforts, including efforts for which they are 
not compensated.
    It is important to note there has been no single silver-
bullet solution that has brought about advancements the U.S. 
agriculture sector has made in recent decades to improve 
environmental sustainability. Instead, advancements have been 
made due to the adoption of a range of technologies and 
practices, and realizing efficiencies. When combined, all of 
those separate parts tell us a much greater story that 
demonstrates how American farmers are able to increase 
productivity, while at the same time, reduce greenhouse gas 
emissions, and minimize the impact on the environment. I wish 
everybody could understand this.
    Rather than a silver bullet, it is like a recipe that 
includes many ingredients--biotechnology, precision 
agriculture, voluntary conservation practices such as no-till 
farming, veterinary care, livestock nutrition, and genetics, 
all of which help our U.S. producers improve environmental 
sustainability.
    Importantly, these efforts have been self-initiated and 
largely self-funded by America's farmers and ranchers. 
Obviously, climate change is a complex and global issue. We 
must be thoughtful, informed, and deliberate in considering 
potential responses and consequences. If farmers are hindered 
from utilizing existing technologies and research, or if 
unsound regulatory decisions are made today on emerging 
technologies such as genome editing, we can expect an economic 
result that is, at the least, more costly and, worse, 
unsustainable for our farmers and ranchers.
    The reality is the agriculture and food value chain is 
complex. It is made of growers, input suppliers, processors, 
handlers, and consumers, and it is impacted by production 
cycles that can span several years, weather, disease, 
perishability, and other factors beyond our human control.
    Agriculture is an open system, and we must understand and 
ensure that American family farms must stay in business. 
Alternatively, a likely result includes food and fiber 
production being shifted to countries that do not have the same 
conservation-minded producers that we have here in the United 
States, countries that are unable to produce food at the scale 
of our farmers, ranchers and growers.
    I believe agriculture and American farmers and ranchers who 
live by the concept of continuous improvement and voluntary-
based conservation can be a model for other industries and 
other countries on how to address problems like changes in the 
climate in a practical, local, and individual way.
    I look forward to hearing from the panel on producer 
perspectives of global climate change and the responses that 
have already, or are already underway in the agriculture sector 
to address this challenge. This should be a good learning 
opportunity for all on the Ag Committee.
    With that I recognize the distinguished Senator from 
Michigan, my buddy----
    Senator Stabenow. Thank you.
    Chairman Roberts [continuing]. my pal----
    Senator Stabenow. That sounds like a song, Mr. Chairman.
    Chairman Roberts [continuing]. stagecoach rider, Senator 
Stabenow, for any remarks she may have.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, for 
holding a very important hearing today on climate change and 
the solutions that can come from agriculture. That is what we 
want to talk about today.
    I would first note that we've received a lot of statements 
from organizations that would love to share their views from 
groups such as the National Young Farmers Coalition, to 
National Sustainable Agriculture Coalition, and others. Without 
objection, I would ask to put these statements into the record.
    Chairman Roberts. Without objection.
    Senator Stabenow. Thank you.

    [The following documents can be found on pages 62-95 in the 
appendix.]

    Senator Stabenow. Thank you very much.
    I believe there is no greater challenge that will affect 
the future of the planet, our agricultural economy, and our 
ability to feed a growing population other than the one we are 
talking about today. Really, it is the biggest challenge that 
we have.
    My goal today is not to debate the science of climate 
change--the science is sound. I believe in science. We all do. 
Sound science has helped our farmers grow the safest, most 
productive food supply in the world, and we will continue to do 
so. That same sound science is telling us that climate change 
from carbon pollution is an urgent challenge. That same science 
is giving us the tools to confront and address it.
    No one understands the stakes and the potential solutions 
better than our farmers and ranchers. Right now in Michigan, we 
have seen bomb cyclones, flooding, tornadoes, and other extreme 
weather events. We are also seeing unusually cold and rainy 
weather that has kept farmers from getting into their fields, 
likely lowering yields as we move past the ideal planting 
window.
    Across the country, we have seen a growing and alarming 
number of extreme natural disasters, wreaking havoc in 
communities and on farms. According to the nonpartisan 
Government Accountability Office, climate change could result 
in crop losses costing up to $53 billion every year for our 
children and grandchildren.
    While our agriculture industry is uniquely affected by 
climate change, our farmers and food businesses are also 
uniquely positioned to address the root causes. With the right 
support, our producers can cut down on their emissions and 
profit from the adoption of practices to store more carbon in 
soil and trees. These solutions are good for the environment 
and good for our farmers' bottom line.
    The good news is that many farmers and ranchers are already 
rising to this challenge, all while continuing to meet the 
growing global demand for food. The other good news is that our 
2018 Farm Bill provides funding support for many of the 
solutions that are needed.
    Producers like the corn growers are partnering with 
conservation groups to establish innovative organizations like 
the Soil Health Partnership, the Midwest Row Crop 
Collaborative, and many others. Food companies are forming 
sustainability alliances and taking additional actions to 
reduce their carbon footprint.
    For decades, farmers have been adopting voluntary, climate 
conservation practices like cover cropping, no-till farming, 
and adding more trees as windbreaks and buffers.
    Currently, there are 140 million acres of farmland using 
USDA conservation programs. Since 2012, we have seen the number 
of farms installing renewable energy systems like solar panels 
and anaerobic digesters double. Actions resulting in all of 
them cutting their energy consumption, their costs, and their 
emissions. Now, through landmark investments, producers have 
had more opportunities to grow the next generation of biofuels, 
and to make money in voluntary carbon markets from grassland 
conservation in North Dakota to sustainable rice cultivation in 
Arkansas.
    With many farmers and ranchers already implementing these 
practices, our challenge going forward, I believe, is how to 
scale up and support these efforts. The 2018 Farm Bill is the 
starting point. This law enacted the most ambitious- and 
bipartisan-climate-smart agricultural policies to date, with 
the support of 87 Senators. Changes to crop insurance, working 
lands conservation programs, and forest health initiatives are 
helping producers sequester carbon and improve sustainability.
    Looking forward, we need to expand the good work that's 
already happening, all while providing farmers with economic 
opportunities so they can continue to grow the food that feeds 
the world. No farmer wants the government telling them how to 
farm their land. That is not what this is about. We should be 
strengthening the ways that farmers can benefit from building 
on the positive steps they are already taking.
    In the past, we have risen to face challenges of this 
magnitude. During the 1930's, our farmers experienced an 
unprecedented catastrophe during the Dust Bowl. Dust storms 
buried homes and darkened cities. Crops and livestock were 
decimated. Children died of pneumonia. Thankfully, our Nation's 
response matched the challenge. We created thousands of locally 
led conservation districts, established the Soil Conservation 
Service at the USDA, and planted over 3.5 billion trees on 
barren land.
    While the problem at hand might be different, the urgency 
is the same. Proposals to confront this problem must be 
bipartisan and must meet two goals, in my judgment. They must 
increase global agricultural production to feed the billions of 
people who need food, and they must support modern farming, 
ranching, and forestry practices that reduce greenhouse gas 
emissions and keep more carbon in our soils and trees.
    I believe this Committee has a strong bipartisan framework 
to accomplish these goals and I am anxious to move forward. 
Thank you again, Mr. Chairman.
    Chairman Roberts. I thank the Senator from Michigan for her 
very comprehensive statement and also outlining some of the 
things that we both worked on very hard on a bipartisan basis 
with regard to conservation, crop insurance, and certainly 
other important items.
    We now will hear from the panel. Our first panelist is Mrs. 
Debbie Lyons-Blythe, a rancher from White City, Kansas. Debbie 
Lyons-Blythe is the owner and operator of the Blythe Family 
Farms, a multigenerational ranch near White City, Kansas. 
Debbie's ranch includes more than 5,000 acres of native 
grassland, crop ground, and a seed stock herd of 500 registered 
Angus cattle.
    Debbie has held leadership positions in the Kansas 
Livestock Association, the National Cattlemen's Beef 
Association, and is a founding member of the U.S. Roundtable 
for Sustainable Beef. Debbie is a vocal advocate for the U.S. 
cattle and beef industries and she is passionate about engaging 
and educating consumers about the positive story of cattle and 
beef production through her blog, Facebook, and consumer 
conferences.
    She received degrees in agriculture communications and 
journalism from Kansas State University, home of the ever-
optimistic Fighting Wildcats. Debbie and her husband are 
parents to five children who also are involved in the family 
ranching business. Thanks for being here today, Debbie. Please 
proceed.

 STATEMENT OF DEBBIE LYONS-BLYTHE, BLYTHE FAMILY FARMS, WHITE 
                          CITY, KANSAS

    Ms. Lyons-Blythe. Good morning. Thank you, Chairman Roberts 
and Ranking Member Stabenow, for inviting me to testify today. 
I am proud to be here representing farmers and ranchers in the 
conversation about climate change, and I must offer a quick 
shout-out to all those that are actually at home caring for the 
livestock today so that I can be here and be their voice.
    I know you've all heard the often-quoted statistic that 
less than two percent of the American population is directly 
involved in agriculture today, but do you know why that is? It 
is because in American agriculture we are so good at what we do 
that the rest of the population does not have to work daily to 
grow their own food. By our improved efficiencies and 
technologies other people are free to become scientists, 
clothing designers, and teachers, and doctors, and data 
processors, and heck, maybe even legislators.
    The beef cattle industry has a great story to tell in the 
climate conversation. According to the U.S. Environmental 
Protection Agency, direct emissions from beef cattle only 
represent two percent of all greenhouse gas emissions in this 
country, and a recent study published by the U.S. Department of 
Agriculture found that emissions from cattle ``were not a 
significant contributor to long-term global warming.'' That is 
because American agriculture produces agricultural products 
more efficiently than the rest of the world, and those 
efficiencies mean real reductions in climate emissions.
    Various technologies are helping us produce a safer product 
that has a small footprint on the environment. One of the 
technologies that we use at our ranch is genetic testing to 
identify the best bulls to breed. With a small DNA sample, we 
can select for those with the best feed efficiency, carcass 
quality and growth, as well as other important traits. The 
efficiency traits directly affects sustainability. An animal 
who will reach harvest faster and still produce a high-quality 
product will impact the environment for a shorter period of 
time.
    Antibiotics are another technology we utilize to maintain 
cattle health and which, in turn, allows our cattle to utilize 
food and water more efficiently. Hey, it is pretty simple. A 
sick animal takes longer to gain weight and reproduce, and that 
results in a larger environmental footprint.
    These technologies, or some like them, allow cattle 
ranchers to produce the same amount of beef today that we were 
producing in the 1970's with 33 percent fewer animals.
    Along with lowering emissions, ranchers have many ways we 
improve carbon sequestration. For example, the native grass in 
the Kansas Flint Hills can grow up to 6 feet tall with root 
systems more than 20 feet deep. Those deep roots are excellent 
at sequestering carbon in the soil, effectively pulling it out 
of our atmosphere. It is vital that we maintain and improve the 
existing grasslands to keep out urban encroachment. Cattle are 
the best way to utilize, maintain, and improve those 
grasslands, and ranchers like me are the reason that they exist 
today.
    We also grow crops on our ranch, to feed our livestock, and 
we use cover crops and low-tillage methods to keep plant 
material growing in the fields throughout the year. These 
practices are proven to increase carbon sequestration.
    We do it, though, because it's the right thing to do and 
because it improves our operation, not because we're required 
by the government. In addition, Blythe Family Farms is a 
founding member of the U.S. Roundtable for Sustainable Beef, 
and this organization brought together all segments of the beef 
supply chain, along with allied partners and many conservation 
organizations to demonstrate and improve beef sustainability.
    Hey, I am not here today to tell you that ranchers across 
America wake up and say, ``How can I improve carbon 
sequestration?'' or ``How can I impact sustainability?'' Yes, 
those are buzzwords. They do not mean very much in the country. 
As ranchers, we have always been focused on conservation, 
animal welfare, being more efficient, and ensuring that our 
children and grandchildren will be able to continue that 
legacy. As my grandpa used to say, ``Leave the land better than 
you found it.'' Farmers and ranchers are truly the original 
environmentalists.
    In closing, let us talk about climate change policies. We 
have a simple request to you. Do not support legislation or 
policies that unfairly target cattle producers. Cattle have a 
positive role to tell in a healthy, sustainable food system. 
Cattle ranchers are proud of our history as stewards of our 
nation's natural resources. The industry takes very seriously 
its obligation to protect the environment while providing 
people with a safe and affordable food supply. Thank you.

    [The prepared statement of Ms. Lyons-Blythe can be found on 
page 38 in the appendix.]

    Chairman Roberts. We thank you, Debbie.
    Our next witness is Dr. Frank Mitloehner. He is a Professor 
and Air Quality Extension Specialist in the Department of 
Animal Science at the University of California, Davis. He is a 
globally recognized expert on the subjects of climate change, 
the livestock industry's role in addressing this challenge, and 
understanding and mitigating air emissions from livestock 
operations.
    Dr. Mitloehner was appointed to the President's Council on 
Science and Technology by President Obama. He is a past 
Chairman of the United Nations Food and Agriculture 
Organization partnership project to benchmark the environmental 
footprint of livestock production, and has served on committees 
of the National Academy of Science Institute of Medicine.
    Dr. Mitloehner received a Master of Science degree in 
animal science and agriculture engineering from the University 
of Leipzig, in Germany, and a doctoral degree in animal science 
from Texas Tech, home of the ever-fighting Red Raiders.
    I look forward to your testimony, Doctor. Thank you very 
much for coming.

STATEMENT OF FRANK MITLOEHNER, PROFESSOR, DEPARTMENT OF ANIMAL 
  SCIENCE, UNIVERSITY OF CALIFORNIA, DAVIS, DAVIS, CALIFORNIA

    Mr. Mitloehner. Thank you and good morning, Chairman 
Roberts, Ranking Member Stabenow, and members of the Committee 
for inviting me today to discuss the relationship between 
livestock and climate change.
    I am a professor of animal science and air quality 
specialist in cooperative extension at the University of 
California, Davis, where much of my work revolves around 
studying the emissions of livestock in order to determine their 
contribution to air pollution and climate change. I also spend 
a good deal of time dispelling the notion that globally, 
livestock is responsible for more greenhouses gases leading to 
climate change than the entire transportation sector. This myth 
is one of the chief reasons we are advised to eat less meat, to 
protect us from global warming.
    According to the U.S. EPA, those sectors of our society 
consuming fossil fuels such as transportation, electricity, and 
industry contribute to 80 percent of all greenhouses gases. In 
contrast, all of animal agriculture combined contributes to 3.9 
percent, yet livestock, and therefore our consumption of animal 
protein, often bears the brunt of the blame for climate change.
    So why the misconception? In 2006, the United Nations Food 
and Agriculture Organization, FAO, published a global study 
titled ``Livestock's Long Shadow.'' It stated that 18 percent 
of the world's greenhouse gas emissions were the result of 
livestock and that globally, livestock was emitting more 
greenhouse gases than all modes of transportation combined. The 
claim, incorrect by a long shot, was the result of a 
methodological error. Whereas FAO used a comprehensive life-
cycle assessment when depicting livestock greenhouse gases, it 
employed a different and simplified method of direct emissions 
only for transportation. I pointed out the flaw and the FAO 
owned up to the mistake, but FAO's claim that livestock was 
responsible for the lion's share of greenhouse gases was the 
shot heard around the world. To this day, we struggle to un-
ring the bell.
    It is staggering how many people think that merely us 
giving up meat, even once a week, will make a significant 
impact on their individual carbon footprints. A study published 
in the Proceedings of the National Academy of Science, PNAS, 
demonstrates that it cannot.
    The study titled ``Nutritional and Greenhouse Gas Impacts 
of Removing Animals from U.S. Agriculture'' demonstrated that 
even if all Americans were to give up meat, such a scenario 
would reduce greenhouse gases in the U.S. by only 2.6 percent. 
If every American subscribes to Meatless Mondays, it would only 
reduce our carbon footprint by 0.3 percent. This is due, at 
least in part, to the efficiency of U.S. agriculture.
    U.S. livestock has shown astonishing progress, economically 
and ecologically, in past decades. According to the FAO, total 
direct greenhouse gas emissions from U.S. livestock have 
declined by 11.3 percent since 1961, while livestock production 
has more than doubled. This massive increase in efficiency and 
decrease in emissions has been made possible by the 
technological, genetic, and management changes in U.S. 
agriculture since World War II.
    Consider that animal herds are at an historic low in the 
United States without a corresponding decrease in output. In 
1950, there were 25 million dairy cows in the United States. 
Today there are only 9 million dairy cows. They produce 60 
percent more milk than their ancestors did. The carbon 
footprint of a glass of milk is two-thirds smaller today than 
it was 70 years ago. It is a similar story for beef, swine, and 
poultry, making U.S. agriculture the envy of the world. We have 
improved the outputs by holding inputs steady.
    Yet we still meet with criticism. I often get asked if U.S. 
cattle are causing an increase, a report--I repeat, an 
increase--in global warming. The simple answer is no. Cattle 
temporarily convert photosynthetic carbon, contained is grasses 
they consume, into methane. After only one decade, methane is 
oxidized into atmospheric CO\2\ which is then assimilated by 
plants that are eaten by animals. It is a natural carbon cycle.
    As a result, constant cattle herds do not increase 
atmospheric methane and therefore do not increase global 
warming. In the U.S., livestock herds have not only been 
constant but they have been significantly decreased over the 
last half century, meaning that the related methane has 
actually decreased as well.
    I further submit that livestock allows us to value-add 
plant agriculture, both in terms of nutritional and economic 
value. That is, we can make use of marginal land, which is two-
thirds of our agricultural land in both the U.S. and worldwide, 
to raise ruminant livestock that is able to feed on plants 
inedible by humans and upcycle them into high-quality animal-
based foods. Furthermore, according to the PNAS article 
mentioned above, removing animals from U.S. agriculture would 
result in a food supply incapable of supporting U.S. 
populations.
    Of course, we would likely produce more pounds of food and 
more calories per person if we raised only plants, but food 
security is more than calories. Micro- and macro-nutrients are 
essential and highly abundant in animal-sourced foods.
    In closing, the global population is trending toward nearly 
10 billion by 2050, representing an enormous food security and 
natural resource challenge. Meeting that challenge will require 
the world to produce both plant- and animal-based foods and to 
produce them more efficiently, while making the best use of 
agricultural land, including those considered marginal. First, 
we need to examine the facts and not engage in hyperbole.
    Thank you very much for your attention.

    [The prepared statement of Mr. Mitloehner can be found on 
page 43 in the appendix.]

    Chairman Roberts. We thank you, Doctor, for your testimony. 
Senator Fischer has the privilege of introducing Matt Rezac.
    Senator Fischer. Thank you, Mr. Chairman. Today I want to 
welcome Matt Rezac from Weston, Nebraska to the Committee. I 
also would like to welcome his wife, Tina, and his sons, Jacob 
and Chase. We are happy to have all of you here today.
    Mr. Rezac is a fourth-generation farmer who manages Rezac 
Farms, a 2,500-acre family farm consisting of corn and soybean 
production in eastern Nebraska. Matt is a member of Frontier 
Cooperative where he is involved with the Ultimate Acre Grower 
Panel.
    In 2017, Rezac Farms was awarded the Conservation Agronomy 
Award for Outstanding Sustainability by Land O'Lakes SUSTAIN 
Initiative. Nominees were judged for air quality and greenhouse 
gas emissions, steps to maintain soil health, and improvement 
of water quality, among other factors.
    Properly managing our environment is important, and 
Nebraska's agriculture producers who feed and fuel our world 
know better than anyone about conservation and stewardship. 
Matt's hard work day in and day out is a testament to that.
    Thank you, Mr. Chairman, for holding today's hearing. I 
look forward to discussing the good work Matt and many of our 
hard-working producers across the country are doing to conserve 
our natural resources.
    Matt, thank you for your testimony and we are happy to have 
you here today. Thank you, Mr. Chairman.

   STATEMENT OF MATTHEW REZAC, REZAC FARMS, WESTON, NEBRASKA

    Mr. Rezac. Thank you for the introduction, Senator Fischer. 
Members of the Committee, thank you for having me.
    Chairman Roberts, Ranking Member Stabenow and Distinguished 
Members of the Committee, I am Matt Rezac. I'm a 4th generation 
farmer from Weston, Nebraska. My wife Tina and I farm about 
2500 acres in a corn and soybean rotation. Some of the land in 
our operation has been in the family for close to 140 years. My 
sons, Jacob and Chase, are also here today.
    When we talk about stewardship of the land, and doing what 
is right for the land, there is no one better than the American 
farmer. Most of the farmers I know do it for the next 
generation. On my farm we have always been conscious of what we 
are doing to the land.
    About 20 years ago, I knew I had to do something different. 
If I was going to stay in business, I knew I had to find a way 
to be profitable, and I knew I had to take full advantage of 
technology. I wanted to break outside the box of how we had 
been farming. I looked at everything we could do and I soon 
figured out the key was going to be all about soil health.
    First thing I noticed was that we had a serious soil 
compaction problem on the farm, and that once we started really 
concentrating on the soil, we saw that soil come back to life. 
Instead of just treating the symptoms of poor soil health, we 
diagnosed the root cause and the world opened up.
    Since then, we have always focused on how we can do the 
right things for our farm. As we think about stewardship and 
climate today, I would like to share some key points with the 
Committee on this important topic.
    First, technology is critical, and the future of 
agricultural conservation is precision. Just as I use precision 
agricultural tools to optimize my production and minimize 
inefficiency, precision conservation tools and planning help me 
reduce waste in my production system. In this case, waste means 
lost top soil and misplaced crop inputs.
    On our farm we use variable rate technology and moisture 
probes in the soil to manage water. We are extremely precise 
about our nutrient management, making adjustments in season. We 
use tissue sampling during the growing season to know exactly 
what the plant needs. Most people do not understand this, but 
giving a plant too much of a certain nutrient, such as 
nitrogen, is just as bad as giving it too little, and it just 
adds to waste.
    Precision conservation tools like Land O'Lakes SUSTAIN's 
Truterra Insights Engine highlight the financial opportunities 
for different field management systems. The most effective 
conservation practices are those that have an economic benefit 
to the farm, either by increasing yield and revenue, or by 
eliminating waste. Often where a crop field is not profitable, 
there is a portion of that field experiencing poor soil health 
due to topsoil erosion or nutrient losses. By using precision 
conservation tools, we can see how an unprofitable part of the 
field might be better in a conservation program. By focusing on 
net profitability, these precision tools can help farmers 
achieve their business goals while also improving their 
stewardship of natural resources.
    Second, crucially, no one farmer, entity, or sector has all 
the answers and capabilities to accomplish alone what is 
needed. It takes all of us working together--farmers, the 
government, and the private sector--to deliver climate 
solutions.
    My stewardship journey is a one of relationships and 
collaboration. We could not have accomplished what we did on my 
farm without my District Conservationist and my local NRCS 
office. NRCS has worked with me to tailor conservation 
solutions to my own farm. Unfortunately, my local NRCS office 
is overworked, and truthfully, overwhelmed. The time it takes 
to really sit down with a farmer and tailor conservation 
solutions is enormous.
    To fill some of that void, I turned to my local co-op, 
Frontier Cooperative. Frontier has been a leader in 
sustainability and they joined the Land O'Lakes SUSTAIN program 
when it launched in 2016. Frontier embraced bringing 
agronomists out to the farm, educating farmers about being more 
efficient. The availability of robust data, analytics, and 
insights allows me to work with my agricultural retailer to 
employ practices in a far more targeted and impactful way than 
ever before.
    The bottom line is this: on-farm conservation is not just 
good for the environment. It also supports a stronger rural 
economy through increased resiliency and profitability for 
farmers like me. To maximize both environmental benefits and 
economic benefits, it takes everyone working together.
    We might not always see it or talk about it as a climate 
issue. I know the weather is changing, but I try to control 
what I can control. That is why you will hear us talk about 
things like maintaining soil health, protecting water quality, 
and controlling erosion. The practices that achieve those goals 
also help provide climate solutions. For example, I know what 
we are doing with soil health can help with weather variability 
and make my farm more resilient at the same time.
    In closing, I want to emphasize the importance of farm 
economics. It is critical that climate solutions make economic 
sense for farmers. Providing market and policy incentives that 
complement the goals I have discussed will be vitally 
important.
    In today's farm economy, we are not farming to rake in a 
profit. We are not making money, and we are farming to lose as 
little as possible. My top priority is to make sure my farm is 
healthy and strong when Jacob and Chase are grown up. I know 
focusing on stewardship makes economic sense.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to testify on this important issue. I look 
forward to answering any questions.

    [The prepared statement of Mr. Rezac can be found on page 
50 in the appendix.]

    Chairman Roberts. Well, thank you, Matt. I am going to 
suggest, if you will, please, have your wife Tina and your two 
sons, Jacob and Chase, stand up if you would.
    [Applause.]
    Chairman Roberts. I think that young man looks like a 
future farmer for sure.
    Our next witness will be introduced, at length----
    Senator Stabenow. At length?
    Chairman Roberts [continuing]. if she chooses to go down 
all of the honors that this next witness certainly deserves. He 
is no stranger to our Committee or, for that matter, any 
committee in the Congress. He is a recognized leader and 
champion for agriculture. We are very privileged have back to 
the Committee a former Secretary but now President--has a ring 
to it, doesn't it?--President of the U.S. Dairy Export Council 
in Arlington, the Honorable Thomas Vilsack, who will now be 
introduced by Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman. I think 
you have done a great job of it already, but we do want to 
welcome Secretary Tom Vilsack back to the Committee. Obviously 
this is not his first time at the witness table. Today he joins 
us as the President and CEO of the U.S. Dairy Export Council, 
where he is leading its mission to strengthen the dairy 
industry through increased exports and innovation.
    Secretary Vilsack joined the U.S. Dairy Export Council in 
January 2017, after serving 8 years as the Nation's 30th 
Secretary of Agriculture and the longest-serving member of 
President Obama's Cabinet. While at the Department, he worked 
to strengthen the American agricultural economy, invest in the 
future of rural America, and conserve our land and water. There 
has been no better spokesperson for rural America than 
Secretary Vilsack.
    Prior to his appointment, he served two terms as Governor 
of Iowa, in the Iowa State Senate, and as the mayor of Mt. 
Pleasant, Iowa. So we are so pleased to have you back with us 
to talk about the important work that you are in involved in. 
Welcome.

  STATEMENT OF THE HONORABLE THOMAS J. VILSACK, PRESIDENT AND 
CHIEF EXECUTIVE OFFICER, U.S. DAIRY EXPORT COUNCIL, ARLINGTON, 
                            VIRGINIA

    Mr. Vilsack. Thank you very much, Senator, and Mr. 
Chairman, thank you very much for the opportunity to be here 
today, and I am certainly honored to be with the other 
panelists.
    I want to express appreciation for this hearing on behalf 
of the 39,000 family farmers who are in the dairy business. 
They operate farms across the country and they help to employ 
nearly 3 million people who are involved in the dairy industry 
across the country.
    You have heard many sound climate environmental reasons for 
conducting this hearing, but I would like to focus on a 
competitiveness concern, and I think that is a reason for 
having this hearing. Domestic and international consumers and 
customers are increasingly demanding that dairy products and 
all food products be sustainably produced. It puts us at a 
competitive advantage if we can make the case.
    The dairy industry has a good story to tell but it is 
challenging itself to tell an even better story in the future, 
but it needs willing partners from the government and the 
private sector.
    In 2009, the dairy industry made a commitment to reduce 
across the supply chain 25 percent of their emissions by 2020, 
based on intensity. The dairy farmers across the country 
employed a variety of technologies and techniques. You have 
heard of some of them already this morning. Soil health 
improvements with no-till and cover crops, better grassland 
management with rotational grazing, improved feed efficiency, 
exercising the four R's with reference to nutrient management--
the rate, amount, place, and time--adopting methods of 
capturing methane and converting it into fuel and energy to 
provide power for their operations, and along with processors, 
support of the development of an innovation center for the U.S. 
dairy industry and started a company called Newtrient that is 
looking at creative ways of dealing with manure management.
    The FAO recently reported that producers in North America, 
dairy producers in North America, were the only dairy producers 
across the country and the world that actually reduced their 
emissions, with a five percent reduction overall. The industry 
has basically reduced their emissions by close to 20 percent, 
very well on pace for their 25 percent goal by 2020.
    We are simply not satisfied with simply reducing emissions. 
I think the time has come for the dairy industry, specifically, 
and agriculture, generally, to look at creative ways to get to 
a net zero emission operation. That is a tall order, but I 
think there are a number of steps that could motivate and 
accelerate that effort.
    First, establishing a series of pilot farms that could 
aggregate all of the existing technologies and techniques that 
are currently being used. This would allow us to measure and 
verify the conservation and emission results. It would also 
allow us to identify the costs associated with this type of 
farm and assist all of you in determining the financial 
incentives and policies that would accelerate adoption.
    It is no surprise to this Committee, nor to the members of 
this panel, that dairy farms, along with other farms, have had 
some challenging economic times. So it is important and 
necessary that we look for financial incentives and financial 
inducements to get to net zero. I think we can continue to 
expand significantly the development of ecosystem markets that 
will help generate the revenue necessary to adopt these 
technologies.
    We need to promote new technologies in seed genetics. I had 
a recent conversation with Dr. Chory out at the Salk Institute. 
She is working on research that will eventually, in her view, 
lead to corn and soybeans and the root systems for those two 
commodity crops being able to significantly increase carbon 
sequestration.
    Developing better sensors so we have a better understanding 
of the amount of carbon that is being sequestered in our soil. 
Feed additives that can reduce methane currently exist but are 
going through a regulatory process that is very time-consuming. 
Improved manure management. There are literally thousands of 
ways in which we can use the fiber, the water, the chemicals, 
the materials from manure to create new opportunities and new 
business opportunities in rural America.
    This is going to require an increase in focus of research 
dollars in the public sector, a modernization of our regulatory 
systems designed to keep pace with this incredible pace of 
change, and financial incentives to encourage farmers to adopt 
these technologies and techniques.
    This is a climate imperative but it is also, I would 
suggest, a marketed imperative. That is why this hearing is 
incredibly important. I want to take this opportunity, as a 
citizen of this country, just simply to thank this Committee 
for the fact that you are approaching this in a bipartisan way. 
I suspect that there are many out in the countryside that 
appreciate this Committee's approach toward problem-solving, 
and it is a pleasure and honor to be here this morning.

    [The prepared statement of Mr. Vilsack can be found on page 
54 in the appendix.]

    Chairman Roberts. Tom, thank you so much for coming back 
and thank you for all that you have done on behalf of 
agriculture.
    Debbie, many of the initiatives you described in your 
testimony are self-initiated and self-funded. You emphasized 
that. Can you describe some of the tools that the beef industry 
has at their disposal to expand their knowledge and efforts on 
issues like environmental sustainability?
    Ms. Lyons-Blythe. So, you know, there are many different 
tools that we can utilize specifically for research and other 
information. I will tell you that I rely very heavily upon 
Kansas State University and other university information as far 
as research, and I really feel that that is a tremendous 
outreach for education and opportunity.
    In addition, cattle ranchers have funded the Beef Checkoff, 
and through the Beef Checkoff we have done a lifecycle 
assessment. That study has really highlighted a lot of the 
practices that we have been using through the last 30 years, 
and the improvements that we have made already. It is a very 
comprehensive--and I think Dr. Mitloehner can probably speak to 
that more than I can--but a very comprehensive study that 
really, truly looks at the sustainability of beef. We are very 
proud of the role that beef does play in sustainability.
    Chairman Roberts. I thank you for that. Matt, your 
testimony provides a compelling story about the technology and 
voluntary conservation practices that you and, of course, 
farmers across the country install on your operation.
    Your testimony also highlights that many producers like 
yourself implement sustainable conservation practices on their 
farms, not only through government assistance but willingly out 
of their own pocket. Can you expand upon the conservation work 
and practices that farmers like yourself voluntary incorporate 
which are not compensated by the Federal Government, and how do 
these efforts generate both a return on investment and an 
environmental benefit?
    Mr. Rezac. I think that any time you look at improving your 
soil health, whether it is out of your own pocket or doing it 
through a government program like a CSP or an EQIP program, 
which you guys have worked hard on, any time you can create 
soil health and make it better people are going to see a return 
on that.
    So I do not--you know, they are willing to take it out of 
their own pocket in order to help on topsoil erosion and stuff 
like that. To be quite honest with you, a lot of people, I 
think, have a hard time even finding these programs. You know, 
they do not know that they are really out there unless you 
really look for them and dig into it. I think that is probably 
one of the biggest problems. These people cannot--they just do 
not know those programs are available to them. You know, 
without having a good NRCS person that can really reach out to 
you and show you what is available, they have a tough time with 
that.
    Chairman Roberts. I really appreciate that. Thank you for 
bringing it up. That gets back to what Senator Stabenow and I 
have always talked about, and that is access and information. 
So we will take a more direct look at that. Dr. Mitloehner, 
U.S. farmers and ranchers are small businesses. They face tight 
margins and very limited budgets. The operators of those farms 
must generate a profit to stay in business. We all know the 
competitive nature of food production. What suggestions or 
cautions would you provide to the Committee on how best to 
balance the need to preserve the health of our planet as well 
as grow food for a global population in a manner that is 
environmentally sustainable and economically competitive for 
U.S. farmers and ranchers in the world market? I might add, in 
rereading this question it is a lot like discussing U.S. 
history since 1865, but why don't you give it a shot.
    Mr. Mitloehner. Yes. Well, thank you for the question. Now 
I live and work in California and our farmers are among the 
most productive ones in the world. We also have a lot of 
pressures on those farmers, for example, regulatory pressures. 
For example, our livestock industry is supposed to reduce 
greenhouse gas emissions by 40 percent within the next 11 
years. That is 4-0. So that is a tall order. Some of our 
farmers say ``We have enough. We are leaving California. We go 
elsewhere.''
    Recently--I tell you a story--recently a farmer from 
Hanford came to me. He runs a 1,000-head dairy in Hanford. He 
said, ``I have enough. I am leaving California. I am going to 
Texas. I made a trip the other day to West Texas and I met with 
the planning commission, with the local planning commission, 
and they asked me what I want to do, and I said, I want to 
start a dairy here. They asked me how many cows'' and he said, 
``I want to have 3,000 cows.'' The Texan asked him, ``Well, why 
do you want to limit yourself to 3,000?'' He looked at me and 
said, ``Can you imagine that happening in California?''
    The reason why I am telling you this is because if 
increased pressures make farmers move, then that leads to 
leakage. Leakage means that they take emissions with them. We 
will not reduce emissions through these kind of regulatory 
pressures but we increase them. This is something that I really 
want to caution the Committee about, because this is something 
that happens more and more frequently.
    Chairman Roberts. I truly appreciate that. I beg the 
indulgence of my colleagues here. I am going to wrap this up 
pretty quick.
    Tom, you discussed some of the voluntary initiatives that 
the U.S. dairy industry has undertaken, like the Net Zero 
Project. As part of the U.S. Dairy Export Council, what has 
been your experience with the international dairy sector's 
efforts to improve production efficiencies and utilize 
technology?
    Mr. Vilsack. Let me give you one example. I mentioned the 
fact that there is a feed additive that can reduce methane from 
the front end of the cow by 30 percent. The Europeans and the 
New Zealanders who we compete with on the global stage are in 
the process of getting regulatory approval for the use of that 
feed additive, and they will likely get it within a year to a 
year and a half. We will probably be two, three, 4 years down 
the road, based on our regulatory system and structure, to get 
approval for the use of that feed additive.
    That puts us at a competitive disadvantage in terms of the 
global market. As I said earlier, people are very interested in 
making sure that their food is sustainably produced, and that 
is a market advantage. I will tell you, our international 
competitors are looking at ways in which their systems can be 
streamlined to the point that they get these new technologies 
in the marketplace more quickly and, therefore, in a position 
to market more effectively in the global market.
    Chairman Roberts. Thank you for that. I had another 
question but I think we will just put that aside for the time 
being.
    Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. And thank you to 
all of you. We know that our farmers and ranchers are on the 
front lines and have more at stake for healthy soil and clean 
water than anyone, and we all have a stake, a huge stake in 
this. Thank you for what you do.
    Let me start with Secretary Vilsack first, regarding carbon 
markets. Secretary Perdue has talked about his interest in 
carbon markets, and Secretary Vilsack, your USDA helped farmers 
increase their revenue through several pilot carbon market 
projects. I mentioned before grasslands management in North 
Dakota and rice cultivation in Arkansas. It seems like there is 
so much more that we could do in this area. I am sure that 
there is. So what can Congress and USDA do to help farmers and 
ranchers create new revenue streams through voluntary carbon 
markets?
    Mr. Vilsack. Well, first of all, it is to make sure that 
you continue to fund and support the Conservation Innovation 
Grant program, which provided assistance and help in setting up 
these markets, and second, working with the land-grant 
university system to create better measuring, certification, 
and verification systems so that--the reality is if you can 
quantify, measure, and verify a conservation result you can 
market it. The challenge is for us to have accurate 
measurements.
    That is why it is important, from my perspective, as we 
create these pilot farms, that allow us to basically create the 
environment in which, with land-grant university partnerships 
and outside resources, we can measure and quantify and verify 
what specific conservation activities will do, and then 
basically use that as a basis for creating a large-scale 
ecosystem market. You cannot ask farmers to do this on their 
own. They simply do not have the resources. They have the will 
but not the resources. So there needs to be a partnership. The 
government needs to be part of it, and I think the private 
foundation world needs to be part of it as well. So that would 
be one thing, in support for the Conservation Innovation Grant 
program and making sure that land-grant universities are 
involved, intimately involved in the measurement and 
certification of ecosystem markets.
    Senator Stabenow. Thank you. To me, this is a very 
important opportunity on a number of fronts--both in terms of 
revenue stream for farmers and ranchers, but also on where we 
need to go in terms of managing and sequestering carbon.
    Mr. Vilsack. I would just add one additional point and that 
is that there are--and I am not exaggerating here--there are 
literally thousands of business opportunities in terms of 
agricultural waste being converted into chemicals, materials, 
fabrics, fibers, fuel, and energy. We ought to be committed, as 
a country, to creating this bioeconomy, which would create a 
multitude of new revenue streams for farms and ranches across 
the country. Again, there are a variety of programs within USDA 
that could be supportive of this. I think they all need to be 
brought to bear so we can showcase and provide an example for 
folks to see that it is possible.
    Senator Stabenow. I agree. Thank you.
    Mr. Rezac, welcome to you and your family. You are clearly 
an industry leader in this whole area, and I appreciate your 
emphasis on precision agricultural tools and how they can 
minimize inputs, save money, and ultimately help the 
environment.
    Can you talk about some of the barriers to entry--you 
mentioned NRCS--and what needs to happen there? I share your 
concern about making sure NRCS field staff are available and so 
on. What are some of the barriers to entry for producers who 
want to start using precision agriculture tools? How do we take 
what you are doing and increase adoption so that every one of 
your neighbors and those around the country are taking the 
impressive steps that you have been taking?
    Mr. Rezac. Well I think, first off, to really answer that 
correctly is I do not want to put myself up here above 
everybody else, because there is a high percentage of farmers 
out there who are doing great things like this. It is not just 
me sitting up here trying to do it. There are a multitude of 
farmers that are doing phenomenal things right now on their 
farms, and they are really looking at things like soil health, 
taking advantage of precision tools.
    As far as on the side of the NRCS and really trying to 
break barriers there and trying to help them out, I think for 
them the main thing to do--we need the government assistance 
programs. That is huge for us. It helps people look at that in 
a way that, okay, well, if I can bring in extra income to start 
using some of these conservation programs, I am all about it. 
There are a lot of people out there that say, I cannot afford 
to take any more cost and put it into my ground, because we are 
already to the point where we are just bleeding. You know, 
people do not want to take any more money out of their pocket, 
trying to do something that is going to be good for their farm 
but they cannot afford to do that anymore.
    So I think the biggest thing that they could as well is 
start working with your private sectors, your Land O'Lakes, 
your Frontier Co-op. It is such an outreach that you can get to 
a multitude of farmers so much faster than just you guys alone 
trying to push out there and reach out.
    We talked about programs earlier and trying to get people 
to see that. That would be one way to help get them programs 
out there faster.
    Senator Stabenow. Thank you. I have a number of other 
questions. I will wait. I did want to ask one other thing of 
Secretary Vilsack, and that is, exactly what do we need to do, 
from the Federal Government side and the private sector, to 
make your vision a reality for the Net Zero project in the 
dairy industry?
    Mr. Vilsack. I think encouraging the Department of 
Agriculture to make this a focus, creating the opportunity to 
take the existing programs that are already funded, for which 
there are resources, and target those resources in creating a 
series of pilots that take all of the technologies, all of the 
various things that farmers are doing individually, and put 
them in a central location, measure and verify and quantify the 
results, create an ecosystem market that supports this, and 
then develop a series of revenue opportunities from products 
that could be made. Again, when you separate the water from the 
solids and manure you have a variety of new business 
opportunities that could be created, using USDA programs to 
support that new business and incorporating the land-grant 
university system.
    We have got a showcase. We have to show people what is 
possible. In doing so you will also be able to evaluate the 
costs. There is just no question farmers cannot do this on 
their own. There needs to be a significant partnership, not 
just with government but with the private sector as well. I 
think if we establish ecosystem markets, if we establish new 
business opportunities, then I think you will see a tremendous 
adoption on the part of American farmers. They are interested 
in doing this. They want to do it. They just have to have 
partnerships to be able to do it.
    Senator Stabenow. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, very much, and thanks 
to our panelists for being here today as well. It has been very 
enlightening, and Secretary Vilsack, it is always good to have 
an Iowan testifying in front of us today as well.
    While working on the 2018 Farm Bill I supported a number of 
initiatives to increase support for conservation activities 
that benefit soil health, including cover crops resource, 
conserving crop rotation, and advanced grazing management. I 
worked on a number of these with our Ranking Member.
    These improvements to increase adoption of the most 
impactful conservation activities for soil health as well as 
increasing access to land and conservation support for young 
and beginning farmers will play a critical role in supporting 
our farmers and ranchers, especially in Iowa, who continue to 
face devastating storms and, of course, extreme weather events 
as they work to build soil health, productivity, and resiliency 
in the face of all of those various challenges.
    Mr. Mitloehner, I would like to start with you. You had 
stated the primary greenhouse gas of concern for ag, and 
especially for livestock is methane, and you did describe that 
a little bit. Can you further describe the gas and then, again, 
how it interacts in the atmosphere compared to other various 
types of greenhouse gases?
    Mr. Mitloehner. Yes. There are three main greenhouse 
gases--CO\2\, carbon dioxide; nitrous oxide; and methane. The 
first two are long-lived climate pollutants. For example, CO\2\ 
lives for 1,000 years. Once we emit CO\2\ with our vehicles, 
let's say, it stays there for 1,000 years.
    Same for nitrous oxide, but methane is very different. 
Methane has a lifespan of only 10 years. What that really means 
is that if, let's say, a dairy that has 1,000 cows had been in 
existence for, let's say, 50 years, then it added new methane 
for the first 10 years, after which new methane that is 
generated is emitted at the same amount as methane that is 
destroyed, because methane is different from the other gases 
insofar that it is not just emitted but also destroyed 
globally, at the same level. So there is a destruction process 
called hydroxyl oxidation and that occurs constantly.
    So any kind of discussions that I am part of is a 
discussion where that fact is left out, and it should not be 
left out because it is critical.
    Senator Ernst. Yes. I think some of us are pretty struck 
today because we have heard that methane is horrible, we need 
to reduce our livestock herds, and we should have Meatless 
Mondays. We have heard that time and time again. It's been done 
in various Federal agencies in past administrations. You are 
saying, overall, the risk with methane for climate change is 
very, very small.
    Mr. Mitloehner. No, I am not saying that. Methane is an 
important climate pollutant. It is almost 30 times more potent 
than CO\2\. What I am saying is that if we maintain constant 
herds, livestock herds and flocks, then we are not increasing 
methane, and therefore we are not increasing global warming as 
a result of that methane.
    Senator Ernst. Okay. There are ways to mitigate that as 
well.
    Mr. Mitloehner. If we mitigate--and if we mitigate--then we 
are counteracting global warming, because that is a very 
effective tool, and we are using that.
    Senator Ernst. Okay. That is really interesting. I think it 
is, again, pretty enlightening to all of us.
    Secretary Vilsack, one of the Green New Deal's goals is to 
remove greenhouse gas emissions from the ag sector, 
specifically the ag sector. This would impact everything from 
the fuels that power farm equipment to dairy cows that are also 
a source of emissions. How can the businesses and the producers 
that you represent coexist in a world where the Green New Deal 
would be implemented within 10 years?
    Mr. Vilsack. Well, Senator, I think it is--I look at this 
from the opportunity standpoint. We talked just about methane, 
for example. I found out recently that you can--if you capture 
methane, potentially you can use methane as a substitute for 
water in the development of concrete. I mean, there is a whole 
new bio-based opportunity out there that would allow 
agriculture to be a leading indicator on this issue of climate 
and create more jobs and particularly jobs in rural areas.
    So it seems to me that what we want to be able to do is not 
necessarily focus on whether we should eliminate industries but 
whether we can figure out ways in which those industries can 
create new opportunities, and I think agriculture, in 
particular, has a unique role to play. That is why I am urging 
the government, at every level, to support the establishment of 
these pilot farms where we can prove the case that you can get 
to net zero emissions, and then prove the case of additional 
business opportunities and additional revenue streams that can 
be created that will make it easier for farmers to do what they 
already want to do, and are, in some cases, already doing at 
their own cost.
    Senator Ernst. Mm-hmm.
    Mr. Vilsack. This is a brave, new world out there, and this 
is just an incredibly important hearing today because it raises 
the awareness of people that there is an opportunity side to 
this discussion. It is not a situation where it is all 
negative. There are a lot of positive opportunities here.
    Senator Ernst. Thank you for that. I think there is a lot 
of tremendous opportunity as well. What I would hate to see is 
us going down the road of heavy-handed government mandates and 
regulation when we truly are at a point where so many of our 
farmers and ranchers are doing this on their own. We do have 
businesses that are looking at ways of converting other waste-
type products into productive materials.
    I would say Iowa is a true leader in a number of those 
initiatives and we have not done it because the Federal 
Government forced us to do it. We are doing it because we want 
to be stewards of the environment.
    So I do think it is a great opportunity but I would just 
caution that I think we can do this well on our own without the 
Federal Government mandating to our farmers and ranchers 
something that they well cannot afford, without significant 
help from the Federal Government.
    Thank you very much, Mr. Chair.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Thank you. Just to jump off that comment, 
Mr. Rezac, could you talk a little bit about the way the 
incentives and disincentives work for things like no-till and 
cover crops? You talked about not being able to put one more 
dollar in the ground. What is it we could do, or the country 
could do, to incentivize these kinds of sustainable efforts 
more broadly, in your view, when you get to the point of view 
of the farmer or rancher on their piece of land?
    Mr. Rezac. Well, I think, you know, the CSP program, 
Conservation Stewardship Program, I mean, that is a great spot 
to be at. It is just getting it out there to let people see it 
and know how to take advantage of that. That is our number one 
thing right now, because, you know, no-till has a lot to do 
with that, split application of nitrogen. There are a multitude 
of deals there. You might have a spot on that farm that it's 
extremely poor and you never really raise anything on it, but 
yet what do we do as farmers? We do what we do every year--we 
plant it. Even though it has never done anything for us, we 
still plant it.
    Well, why are we planting a piece and throwing so much 
money into it when it is never bringing us any return? Why 
don't we put it into a conservation program and bring--maybe we 
break even. Maybe we do not lose as much money that way.
    Senator Bennet. Are there things that we could do to change 
the conservation programs and make them more useful, more 
flexible, or more helpful?
    Mr. Rezac. I do not mind where they are at now. I think any 
time that you can make it a little bit easier to use, more 
access, not as much paperwork, to go through. The reason I say 
that is because you have got Land O'Lakes and Jason Weller, who 
built that Truterra program. He has made that in a way that we 
can really see that visually, what some of these programs can 
do for us on our farm and profitability wise. That right there 
is the right direction, in my opinion.
    Senator Bennet. Mr. Secretary, it is nice to see you and it 
will not surprise you, you know I have a question for you about 
the role that forests can play in all this. Do you want to say 
a word about that?
    Mr. Vilsack. Well, clearly, to the extent that we have got 
better forest health, we are going to have greater carbon 
sequestration, we are going to have fewer fires, which emits 
the carbon back into the atmosphere. Again, Senator, I am going 
to take this in the same direction I took the earlier 
questions. Let us look at the opportunity side. We have got a 
lot of diseased wood out there that could potentially be 
hazardous fuel for fires. What could we do with it that would 
retain that carbon?
    Well, we could create a construction opportunity for high-
rise buildings out of that diseased wood. There are a number of 
multi-story buildings that are now being constructed with wood 
as being the sort of the structural foundation. That creates a 
new business opportunity. It creates a new opportunity for 
mills. It creates new rural development. Focusing and providing 
resources from the Federal Government to help create those 
kinds of businesses could go a long way to improving forest 
health, maintaining the carbon sequestration capacity of the 
forest, and create better-paying jobs, particularly in rural 
areas, which even with this economy today are still needed.
    Senator Bennet. The Secretary makes an excellent point. I 
would just say to the Chairman in addition to that, the ability 
to move with speed, you know, when you have something like the 
issues that we have had in the West, in Colorado, with bark 
beetle, the longer these trees stay up there the less valuable 
they are. If you cannot harvest them now because of rules and 
regulations, the value of them dissipates. So that is another 
issue that we can fund.
    Thank you to the panel. I want to thank the Chair for 
holding this hearing. I think it is incredibly important, this 
pathway to creating value in rural America through the climate 
change issues that we face. I think it is enormously important, 
so thank you
    Chairman Roberts. Thank you, Senator Bennet.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Matt, you mention several production practices that you 
have begun to implement in your operation, and I know farmers 
and ranchers all across our state, all across this country do 
that as well.
    I am a cattle rancher as well, Debbie, and we began, in the 
mid 1980's, to use holistic resource management on our ranch, 
because, first of all, the improvement to the ground, the 
improvement to the livestock, the improvement for family life. 
Most people think of that as a planned grazing system when, in 
reality, it is a goal-setting system. You alluded to that when 
you said you are looking at practices. So you are going to have 
a farm that your kids are going to be able to use.
    We look at goals we want to see on our land in the next 50 
to 100 years, what we want that land to look like, and I would 
propose that that is not unusual for people in agriculture at 
all.
    You talk about a number of those inputs where you can 
conserve natural resources and you can produce crops more 
efficiently. Can you explain, in a little bit of detail, to the 
benefit of this Committee, on what a variable rate 
fertilization system is? How you use soil moisture probes to 
conserve irrigation water, and why tissue sampling helps you 
maximize both of those efforts?
    You know, here we all talk about no-till, and we act like 
that is the only thing out there. As the Secretary said, there 
are a lot of opportunities out there for people in agriculture. 
Can you tell us about them?
    Mr. Rezac. When you talk about no-till, for me that is like 
old history. That is 40 years ago, if you ask me. When you get 
into some of the stuff you are talking about there with the 
moisture probes, what we do is we use the moisture probes to 
actually monitor the amount of water that is in our soils and 
how fast our crop is actually taking up that water. So when it 
is at a high usage rate, we can go ahead and kick the 
irrigation on and we can see, first-hand, exactly how much 
water we need to raise that crop. If it is not using it, we do 
not have to be running the irrigation. That is one of the ways.
    Variable rate technology, on the fertilizer side of things, 
if we have got an area in that field that does not need as much 
fertilizer, why should we be putting the same amount there as 
we would in another spot that might need more? So that is how 
all that works as far as the variable rate technology side of 
things.
    Getting on the soil sample side and tissue samples, what we 
like to do is tissue samples in season. We will actually sample 
every Monday throughout the growing season, we do tissue 
samples. We get them back and then we can monitor exactly where 
that plant is, what it needs for nutrients, what it is lacking, 
or what it might have too much of, and then we can adjust, on 
the fly, in-season, as we go to raise our crop that way.
    Senator Fischer. I know, Mr. Secretary, you talked about 
the establishment of pilot farms. I worry about that, because I 
think we live in the real world, and we have to make sure that 
the practices that we do, as ag producers, that they work in 
the real world and we have to look at the cost of those too.
    So I guess my comment to you on that would be I would hope 
we could look at those opportunities, but instead of having 
government set up pilot farms, work instead with producers on 
their land and meet their economic challenges that they have as 
well.
    Mr. Vilsack. I am not suggesting that the government own 
these farms or that they control them. What I am suggesting is 
that you take a partnership with a landowner, a farmer, and 
basically say what would it take for you to incorporate all of 
the technologies that are out there, and allow us to see what 
that result, the cumulative result would be from such a pilot? 
So that would be basically providing the farmer the resources 
to be able to utilize all of these technologies, and then take 
that information and say these technologies, working together, 
do the following. Let's figure out a way in which we can have 
policies and incentives that encourage farmers to do more of 
this. We have to showcase this, right?
    Senator Fischer. Right.
    Mr. Vilsack. We have to elevate it and showcase it. That is 
what I am talking about.
    Senator Fischer. Right. That is--I would love to work with 
you on that. Debbie, my apologies for not wearing my pin today. 
I am glad you did.
    When we look at EPA and some of the regulations there, I 
have concerns, as a rancher. The House Appropriations 
Committee, they released their EPA Appropriations Bill and it 
is aiming to subject livestock producers throughout the country 
to greenhouse gas reporting requirements. They did so by 
omitting a provision that has long been included in the bill 
text. It is obvious, based on the research, that livestock 
simply are not the significant contributor to climate change. I 
thank you for your testimony on that.
    You know, last year I championed a bipartisan bill. We had 
24 Republicans, we had 15 Democrats, where we changed a law 
that would have required farmers and ranchers to report 
emissions under CERCLA. I hate to see us turn back there after 
we had such a bipartisan effort.
    Can you tell us, are cattle producers prepared to report 
greenhouse gases to the Federal Government, and will this in 
any way contribute to solving climate change?
    Ms. Lyons-Blythe. I think that is exactly the point that I 
would like to make is, is that really, truly going to help to 
have farmers and ranchers filling out more paperwork about the 
emissions rather than actually doing the work?
    We are out there doing the work already and helping us fill 
out more paperwork is not going to assist at all.
    Senator Fischer. Okay. Thank you, Debbie, and Matt, Mr. 
Secretary, thank you for the information, and you, Doctor, as 
well. Excellent testimony, Doctor.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Smith.
    Senator Smith. Thank you, Chair Roberts and Ranking Member 
Stabenow. This is a very interesting conversation, as others 
have said, and, you know, I have learned, in Minnesota, that 
when you talk about the impacts of climate change it is true 
that you can address climate change and that can be good for 
our planet, it can be good for our health, and it can also be 
good for our economy. What I hear, really, all of you in 
different ways saying is that we can--if we do this well that 
we can accomplish that. So I want to sort of stay on that 
opportunity message that Secretary Vilsack is suggesting here.
    So, you know, in the 2018 Farm Bill, it included several 
provisions that helped farmers improve soil health and carbon 
sequestration on working lands. It sounds like Mr. Rezac, that 
is a lot of what you have been talking about. I actually worked 
with Senator Ernst to make sure that the farm bill included 
increased incentive payments within the Conservation 
Stewardship Program that will help to achieve these goals.
    In Minnesota, CSP is incredibly popular and important. We 
have nearly 7,000 CSP contracts that have been awarded to 
Minnesota farmers and ranchers, so it is really important.
    So let me just ask, Mr. Rezac, if you could just--from your 
testimony you have talked a lot about this and how these 
conservation programs on working lands really help you, kind of 
help to align the incentives that make sense for you and your 
farm. Could you just talk a little bit more about that, and 
what we need to do on the Federal Government side to make sure 
that those efforts kind of align with what you are trying to 
accomplish on your farm?
    Mr. Rezac. I think one of the main things--there are so 
many different ways we could go with this, because there are 
just so many different opportunities and stuff you can take 
advantage of there. One of the main things I think people need 
to realize when they hear ``Conservation Stewardship Program'' 
is--and you hear about, conservation, in general, people always 
have green on their mind right away, right? It is planting 
cover crops, it is doing all that stuff. I am not going to ever 
say that cover crops are not a good thing. Just sometimes it is 
not a reality for us.
    Last fall, for instance, by the time we got done 
harvesting, it was so wet we had to wait for farms to actually 
freeze so we could get in there to get that crop out. How are 
we going to plant cover crops in frozen ground? That does not 
work.
    So it is not for everybody. I am not saying there is not 
certain areas, and if you manage properly that you cannot take 
advantage of them, but it is not always about cover crops. You 
can get into other things, as far as buffer strips around creek 
lines. Like I said, I kind of talked about it earlier, if you 
have a poorer spot in that farm or that field, maybe you could 
go to like a butterfly habitat or something like that. I know 
that sounds really out there for a farmer, but it pays really 
well. So it is something to look into, you know.
    Senator Smith. Yes. Well, you know, as you are saying, 
every farmer knows that you farm in reality, not in the 
abstract, and so that is why I think it is so important to 
listen to ranchers and producers and growers about what is 
going to work, as we try to get these incentives aligned the 
way we need to get them aligned.
    Mr. Rezac. Yep.
    Senator Smith. I remember the time that I heard a farmer 
say to me, for the first time, ``I am really in the business of 
growing soil.'' I was like, ``What the heck are you talking 
about?'' I understand it so much better now.
    Secretary Vilsack, you and I had a chance to talk a week or 
so--several weeks ago, I guess it was now, about the incredible 
challenges that we are seeing in dairy around the country, and 
certainly in Minnesota. You know, and when I look into the eyes 
of Minnesota dairy--a Minnesota dairy farmer who tells me for 
the first time in 114 years they are not milking a cow on the 
dairy because of the weather challenge and the price challenges 
and so forth. Yet you have such an optimistic message about 
how, if we think about all of the opportunities for creating 
new revenue streams, what a difference it can make.
    Could you just talk a little bit about--because I know you 
understand this so well--the kind of how we think about this 
opportunity in a time of such intense challenge, in dairy, 
especially?
    Mr. Vilsack. Well, 30 percent of all the agricultural 
production in this country gets exported, and I think we have 
to understand that customers around the world are going to be 
demanding more sustainable practices, and they are going to 
want to know more about how the food that they are purchasing 
was produced. So there is a business case to be made to assist 
farmers in making sure that they are the most sustainably--the 
most sustainable stewards they can possibly be.
    You know, I think it is government's responsibility not 
only to provide the resources but also to create ways in which 
those resources can be leveraged. The CSP program and so forth 
is all great but are there ways in which we can take the 
results from that investment and then market that result to a 
corporation or an entity that is interested in that result, to 
satisfy some regulation that they have or just because they 
want to be able to show that they are socially conscious?
    That is why I think it is important for us to accurately 
measure and quantify and verify what is being done on these 
farms, and then basically say to the financial markets, this is 
a result that can be marketed, that can be sold, that can be 
invested in. That brings resources to that farm that is not 
relying on the farmer. It leverages those resources.
    Then if you can take the waste product from that production 
process and you can figure out all of the different 
opportunities that could be created, all the business 
opportunities, the processing opportunities that could be 
created very close to where that biomass is being created, and 
you have a regulatory system that acknowledges and rewards 
that--I mean, we have got a lifecycle analysis now at EPA on 
biomass that does not necessarily encourage the development--
and you continue to provide resources like the REAP program and 
all the other programs we have talked about today, I think you 
essentially create a multitude of opportunities and a multitude 
of revenue streams for that farmer, so that you commoditize, if 
you will, all of these opportunities.
    That is why I just think, for the dairy industry, in 
particular, they are primed and ready to do this. They just 
need partners.
    Senator Smith. Thank you, Mr. Chair. I am proud of the work 
that General Mills in Minnesota is doing, and Land O'Lakes, and 
Cargill and others, in this--it is a demonstration that it is 
government, private sector, and farmers and ranchers making it 
happen.
    Chairman Roberts. We thank you, Senator.
    Senator Boozman.
    Senator Boozman. Thank you, Senator Roberts and Senator 
Stabenow for bringing you all to testify. We have such a 
distinguished panel that represents a variety of sectors within 
the agriculture industry and is working hard to improve it.
    Matt, you mentioned, in your testimony, that ``we fall into 
the trap of that is how we have always done it.'' It is 
interesting because that is certainly true in the Senate, as we 
deal with our problems. In doing so, you have implemented so 
many different practices that you outlined, and I am so excited 
about the technology. I used to have a bunch of cows, and the 
way that things have come so far, in a relatively short period 
of time, really is exciting.
    You have done a good job of embracing the technology and 
things. Tell me about your neighbors. Are they doing the same 
thing?
    Mr. Rezac. We definitely have quite a few of them. Like I 
said earlier, there is a high percentage of farmers out there 
that are doing things correctly and taking advantage of 
technology. With that being said, what is the average age of 
farmers nowadays?
    Senator Boozman. It is 59, 60.
    Mr. Rezac. When it comes to technology, I mean, nothing 
against that but that is tougher for them to take on. You know, 
when our younger generation, we are all taking advantage of it 
and moving forwards. I mean, we love it. It is the best thing 
that is out there right now and just keep it coming, you know. 
When it does not work it is the worst thing in the world, 
right, but when it is working there is nothing better.
    Senator Boozman. Right.
    Mr. Rezac. It is hard for some of them that have done it 
the correct--or the way that they have always done it their 
entire life. It is hard for them to make that change.
    Senator Boozman. All of you mentioned, which I think is so 
important, the idea of incentives versus unfunded mandates, and 
certainly the unfunded mandate approach would not be good for 
farmers to take it up at all.
    Are there any particular things that you have found on the 
farm that were more beneficial than others? What have been a 
couple of things that have really made a difference?
    Mr. Rezac. I would say a couple--you know, some of the most 
eye-opening things on the technology side would have probably 
been when we went to variable rate technology, you know, and 
even on the seeding side of things just being able to have 
individual row shutoffs, stuff like that, which was quite a few 
years ago, but we have seen a huge difference in that very 
first year and a huge payback. It costs to get started in it, 
quite a bit, but we did see a huge payback immediately.
    Senator Boozman. Secretary Vilsack, we appreciate you being 
here and appreciate again all of your efforts in the past. In 
Arkansas, we have less than 100 dairy farms left in the state, 
and in my particular county, not too many years ago, we 
probably had over 200 just in the one county. It really is 
remarkable.
    You mentioned, trying to get new products on the market. 
You have been around a long time in a variety of different ways 
of serving, including serving as the Secretary. What can we do 
as a Committee? How can we help you? How can we help the farm 
community move things forward so that we can be competitive 
with our European friends and the rest of the world?
    Mr. Vilsack. Senator, I will try to answer that very 
quickly. Number one, I think you need to continue to be 
champions of research. Certainly this Committee has been, but 
we need to invest more in food and agricultural research than 
we have, number one. Number two, I think there is an 
opportunity to review the regulatory systems and the amount of 
time it takes for regulatory systems to approve new 
technologies.
    I mean, you have got seed genetics, you have got the feed 
attitudes, you have got improved manure management techniques 
that all may require regulatory approval in order to be able to 
get into the field and get into and be providing positive 
benefits. It takes a long time--too long, too long--in this day 
and age of massive change and rapid change. We need to 
streamline the process without sacrificing the quality of their 
review. I think it can be done.
    When I was Secretary, we looked at biotechnology. It took 
90 months, when I became Secretary, it took 90 months to get 
approval of a biotech trait, and we had a goal to try to get it 
down to 12 months. I think when I left it was 18 months. That 
was just simply taking a look at the decision tree and saying 
why are all these people having to be involved in this process?
    So those would be several suggestions I would make, and 
then, finally, making sure that you continue to fund these 
programs that are working--CSP, REAP, EQIP--and not use them 
when you are facing some financial difficulties to balance the 
books.
    Senator Boozman. Very quickly, because we are out of time, 
you mentioned, you know, the importance of finding new markets. 
Forty percent of the ag product in Arkansas is exported. We 
simply have to do this in an effort to compete.
    Mr. Vilsack. There is no question about that, and our 
competitors are----
    Senator Boozman. Again, solve our problems with excess 
capacity by buying into the idea that we have one customer here 
and dozens overseas.
    Mr. Vilsack. We represent five percent of the world's 
consuming population, the 95 percent that lives outside of the 
U.S.
    Senator Boozman. Right. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Roberts. We thank you, Senator Boozman.
    Senator Klobuchar, it is good to see you.
    Senator Klobuchar. Thank you, Mr. Chairman. Thank you for 
holding this important hearing and thank you to our witnesses.
    We have seen several recent administrative actions related 
to the renewable fuel standard that have greatly concerned both 
farmers and the renewable fuel industry. Actions like the EPA's 
continued use of small refinery hardship waivers that are 
concerning, not just because thy are hurting our farmers but 
also because every gallon of biofuels we use displaces a gallon 
of oil that reduces emissions, as we talk about climate change. 
In fact, a recent USDA study showed that first-generation 
biofuels reduce greenhouse gas emissions by between 39 and 43 
percent.
    Secretary Vilsack, do you agree that the misuse of small 
refinery waivers can be considered what we will call demand 
destruction?
    Mr. Vilsack. I think, Senator, there are two things that 
need to happen, from my perspective, on the biofuels side. One 
is year-round E15, which would certainly be helpful. You cannot 
undercut that decision to go to year-round E15 with waivers 
that basically reduce the amount of biofuel that is being 
produced. These waivers, I understand the importance of them 
for small refineries, but periodically they have been given to 
refineries that are owned by Exxon and Chevron, fairly large 
companies, which clearly are not financially struggling.
    So, you know, I think it would be certainly helpful if we 
saw fewer of those waivers and more year-round E15.
    Senator Klobuchar. Okay. Thank you.
    Mr. Rezac, can you tell us how important data measurement 
and verification is to demonstrating the good work that ag is 
doing on the ground? How do you think USDA could do a better 
job of collecting that conservation data?
    Mr. Rezac. I am not too sure how to get into that answer 
exactly, but in order to collect all that data and moving 
forward, I think something like the--are you looking at 
something along the lines of like the Truterra program, or----
    Senator Klobuchar. Well, Senator Thune and I had this 
Agriculture Data Act, because we wanted to--because USDA 
currently manages and stores producer conservation data, but 
the study--what we are trying to do is get it out there so 
people like you can have it, so you learn best practices and 
things like that.
    Mr. Rezac. Gotcha.
    Senator Klobuchar. Mm-hmm.
    Mr. Rezac. So I think right away we are going right back to 
the Truterra program and how he had come out with that program 
and showed us what is available out there.
    Senator Klobuchar. Mm-hmm.
    Mr. Rezac. You know, I think that is one of the main ways 
to get it to us.
    Senator Klobuchar. Okay. REAP, the Rural Energy for America 
Program, specifically supports nearly every form of renewable 
energy as well as energy efficiency on farms and ranches. 
Secretary Vilsack, what can we do to make sure that the REAP 
program reaches more farmers and ag producers so they can 
benefit from energy efficiency, renewable energy investment?
    Mr. Vilsack. I think maintain funding and not reduce it, 
and making sure that, in the context of what I have discussed 
here today about a pilot, to the extent that you could use the 
pilot to upgrade an understanding of how REAP could be used for 
methane capture and reuse would be incredibly important.
    I think you also have to combine the REAP efforts with 
looking at EPA and the lifecycle analysis that they are 
currently doing on biomass to make sure that there are other 
opportunities that could be created if that regulatory barrier 
were removed. So it is a combination of things.
    Senator Klobuchar. Thank you. Ms. Lyons-Blythe, you have 
been using innovative approaches to improve soil health and 
grazing practices. What can we learn from innovative ranchers 
who want to both increase productivity while taking care of 
their land and livestock? What do you think are some of the 
most effective ways to increase profit while preserving land 
and livestock?
    Ms. Lyons-Blythe. Yes. So I think one of the things that we 
have been talking about with being farm ground, there is 
really, truly a huge amount of grasslands west of me, Kansas 
and west, except for that very important area in California. 
Truly, it is all about maintaining grassland, keeping the land 
in that pristine prairie and making sure that we can continue 
to farm and ranch--specifically ranch--on those areas.
    You know, one of the things that farmers and ranchers are 
doing, and that I would encourage--each of you have asked about 
what this Committee can do and what government can do to help 
us--I think one of the things is to partner with private 
industries at least in paying attention to the research that is 
already out there. For example, the U.S. Roundtable for 
Sustainable Beef and the lifecycle assessment that has been 
done by the beef industry, we have got a lot of really good 
data showing that we are doing a great job and that beef cattle 
are really doing well.
    Senator Klobuchar. Okay. One last question, Secretary 
Vilsack, on dairy. I know you work with dairy. Is there more we 
can immediately do--this is off of the climate change issue--to 
assist our dairy farmers as we are seeing more and more small 
dairies close down?
    Mr. Vilsack. Well, I think there is a short-term and long-
term answer to that question and I will give you the short-term 
answer. I think to the extent that there is going to be another 
round of tariff assistance because of the tariffs that there be 
additional resources for export assistance so that we can 
continue to expand significantly where we market U.S. dairy 
products, from an export perspective.
    We have seen exports rise but we obviously need to do a bit 
more of that. That is one thing that could be done. I am sure 
National Milk has got a whole series of ideas that they would 
be happy to share with you.
    Senator Klobuchar. All right. Thank you.
    Chairman Roberts. Senator Brown--Braun. Pardon me.
    Senator Braun. Thank you, Mr. Chair and Ranking Member 
Stabenow, and thank you for--when I came to you with this very 
subject to do it in a subcommittee that I chair that he offered 
to do it on a larger forum.
    It has been a great conversation. I have been involved in 
farming, tree farming and row crops for many, many years. I was 
a turkey farmer for 32 years. I am looking at the value 
equation in farming currently, and I remember, 30 years ago, 
you had hundreds of local suppliers. They are almost all now 
gone, concentrated increasingly into fewer and fewer folks that 
sell the inputs.
    Where is the responsibility--and I address this to Mr. 
Vilsack first--among the corporations that increasingly become 
more concentrated in this whole discussion? You know, we talk 
about farmers who, to me, look hamstrung with the economics and 
the perils of existing at the lower end of the food chain, all 
the things that need to be done to address climate and, more 
importantly, profitability at the production level. What is 
your opinion on how we challenge increasingly fewer and fewer 
that seem to be doing okay and prospering in a generally gloom 
farm economy, when you look at farmers in general?
    Mr. Vilsack. A couple of things, I think, Senator. The 
reason why we are in this situation is because we have moved 
away from publicly financed research, and now the research is 
being privately financed, which means that people expect a 
profit in exchange for the investment that they make in 
research. So one suggestion would be to significantly focus on 
increasing public research opportunities that creates 
information that is available to new entrepreneurial 
enterprises.
    Second, I think you also want to take a look at the patent 
laws. I mean, the reality is the pace of change is so 
accelerated today, the question is whether or not the patent 
laws, in terms of the length of time that you provide 
protection, are reasonable. I think if you look at those two 
things you would spur a lot of innovation, a lot of 
entrepreneurship, and a lot of competition for the farmer 
dollar.
    Senator Braun. Thank you, and I want to ask this question 
to Matt. Your story, in terms of what you are coping with on 
the farm, looking at precision fertilization, you know it needs 
to be done but you have to spend a little money, you know, to 
actually take advantage of it. Many farmers are older. They do 
not embrace the technology.
    What is your feeling, because your livelihood, I know, has 
been--I remember, just recently, 10, 12, 15 years ago, an acre 
of soybeans, $70 to $100 on inputs, corn $140 to $170 per acre, 
now double or triple. When Sonny Perdue was sitting there I 
said, ``When are we going to start to challenge the industry 
itself?'' which I directed that question to Mr. Vilsack a 
moment ago, to get more involved, maybe providing relief to 
farmers, where, again, look at the value equation there, where 
they are selling inputs for two to three times as much as they 
did 10 years ago, and you are paying that much more.
    I liked when you said no-till, grass waterways, riparian 
waterways, CRP, WRP. I have done them all. Those are ways to be 
conservationists, but it still comes down to how do you make 
the investment that farmers have to make in a climate like 
this, where you barely can pay the interest, in some cases?
    Mr. Rezac. I think you just hit everything right on the 
head.
    Senator Braun. Thank you.
    Mr. Rezac. I mean, trying to make money right now, today, 
in the farm economy is virtually impossible. I mean, we are 
doing everything we can to try to do it right, but it is so 
tight that trying to ask somebody to put in any extra money to 
try to make something go in what I would say is the right 
direction is extremely hard for anybody to grasp right now. I 
mean, that is--when you are already, like I said, bleeding, how 
do you ask them to bring--to take more money? You know, it is 
not going to happen. Number one, they cannot.
    There are a lot of bankers that are saying, ``No, you 
cannot spend any more money.'' This is what is right for the 
country. This is what is right for the ground, and moving 
forward, and for conservation and everything else, but it just 
does not matter. If you do not have the money to spend you 
cannot keep moving forward.
    So I think the programs and stuff like that is a huge 
incentive moving forward. If we have programs out there that 
take advantage of and use, and people can see that and say, 
``okay, if I do this, this, and this, on a sustainable 
platform, I can bring in this much money extra per year for my 
farm.'' That is huge.
    I mean--we talk about--I do not even know if I should get 
into this, but we talked about carbon credits a little bit. I 
get excited when I hear that. I have looked into it, I have 
read about it, and I am like, that is a whole new avenue of 
income, like we have talked about. To get to there you have to 
have a carbon score on your farm. How do you get to a good 
carbon score? You create great solutions and have good soil 
health. You use conservation practices. That gets you to a 
higher number on your sustainability side which will obviously 
create more carbon credits that you can hopefully sell for 
income. It all kind of works together.
    Senator Braun. Thank you for that honest depiction, and I 
challenge the industry, publicly, to maybe look at what they 
can do to help out everything we have been talking about, you 
know, along with doing some things through government. I think 
it is going to be a joint challenge to get through this tough 
stretch. Thank you.
    Chairman Roberts. Thank you, Senator Braun. Well, Coop, you 
made it back.
    Senator Thune. I do not know if you were all waiting just 
to be able to stay here a little longer and answer a few more 
questions, but thank you, Mr. Chairman. I appreciate you all 
being here, and I know there are a lot of issues when it comes 
to conservation, the conservation title in the farm bill that 
many of us care deeply about. We know more than anything else 
that farmers and ranchers depend upon their land for their 
livelihood, and so being a good environmental steward is vital 
to their success.
    So I would ask--I would like to maybe ask Mrs. Lyons-Blythe 
and Mr. Rezac, in your testimonies you mentioned that your 
families have implemented conservation practices on your 
operations. Could you take just maybe a quick moment to explain 
the value of these practices and how they have added to your 
operations?
    Ms. Lyons-Blythe. You know, I want to give an example of 
what is happening right now in White City, Kansas. So we have 
been getting a lot of rain, and my family, my father-in-law, 
would have begun no-till and reduced tillage back in the 1960's 
before it was really the thing, and it was very unique back 
then. So we have been doing this for a long time.
    It has been an interesting opportunity to see the fields 
recently, that the erosion that has been happening on those 
fields that are getting tillage practices and are actually 
doing things in a more conventional way. Our fields are 
maintaining water, increasing soil health, keeping the topsoil 
where it needs to be. It is not in the ditches. Specifically 
for our fields that farming is really absolutely paying off. We 
have done that on our own, since the 1960's.
    Senator Thune. Great. Mr. Rezac?
    Mr. Rezac. I mean, I think, probably--I mean, I could talk 
about increased yields, stuff like that, that has happened over 
the time--since we have changed a lot of our practices and 
looking at more at the soil health side of things. I will just 
go to something really quick here. Just the other day, I mean, 
I am in the middle of planting season right now. It is raining 
back home, I believe. It is supposed to be anyway.
    I was just out in the field here the other day and I was 
digging, looking for seed, and this is just going to be, just 
pure life right here. I'm digging along and there are 
earthworms everywhere. You know, and when I see that type of 
stuff it is like, okay, we are doing the right thing here. I 
mean, look at the abundance of earthworms working in this 
ground. I mean, they are just--and that was not there 20 years 
ago. I mean, you find them here--I can remember being a kid. I 
was going to go fishing with Grandpa. We would go dig for 
earthworms. It was tough to find them. Now I can find them 
anywhere I want on my farm.
    Senator Thune. Good. Dr. Mitloehner, in your testimony you 
mentioned that there was a lot of misinformation out there 
regarding livestock production's contribution to carbon 
emissions. Could you speak to livestock production's small 
fraction of overall carbon emissions?
    Mr. Mitloehner. Yes. In the United States, according to the 
Environmental Protection Agency, all livestock species combined 
produced about 3.9 percent of all greenhouse gases. So that is 
one of the lowest numbers in the world today.
    Senator Thune. In terms of the--you mentioned also that 
greenhouse gas emissions from U.S. livestock have declined by 
more than 11 percent since the 1960's, at the same time that 
livestock production has more than doubled. What changes have 
occurred in production, livestock production, to account for 
that increased efficiency?
    Mr. Mitloehner. Well, there are different changes. So first 
of all we have drastically reduced herd sizes. So, for example, 
the dairy industry went from 25 to 9 million cows. The beef 
industry, at its peak, was at 140 million. Today they are at 90 
million. So we have drastically reduced herd sizes but we have, 
at the same time, increased productivity.
    We have installed a veterinary system that prevents animals 
from getting sick or treats them. We have improved reproductive 
rate, we have improved the genetic material, and we have 
learned to feed a well-balanced diet to our animals, and that 
combination has allowed us to optimize performance of animals 
and lower environmental impacts to rates that we have never 
seen before.
    Senator Thune. Okay. You can answer this and maybe Ms. 
Lyons-Blythe as well. In the 2018 Farm Bill, we expanded haying 
and grazing flexibility on CRP-enrolled acres, which should 
make the program a more attractive option for landowners.
    What are the benefits of having cattle graze that rangeland 
as opposed to leaving it ungrazed?
    Ms. Lyons-Blythe. So, you know, I think the very best way 
to maintain grasslands is, of course, to have cattle grazing on 
it, and in the Flint Hills of Kansas that encourages 
biodiversity, it cuts out the opportunity for invasive species. 
So we are able to enhance the grasslands simply by grazing it. 
That is absolutely positive.
    In addition, it also enhances wildlife populations. What is 
good for cows is good for wildlife.
    Senator Thune. Yes, and we like that in South Dakota, for 
pheasants.
    In your testimony you discussed the concept of upcycling.
    Ms. Lyons-Blythe. Yes, sir.
    Senator Thune. I think we have all heard of recycling, but 
upcycling is a relatively new idea. Could you just tell us a 
little bit more about what the benefits are?
    Ms. Lyons-Blythe. Very quickly, upcycling is absolutely a 
superpower that cows have, because cows have a rumen. They have 
four different compartment to their stomach that we do not 
have. They can eat things that would normally go to the trash.
    So the quickest example is that in the ethanol industry the 
corn, it is called wet distiller's grain, that would be left 
over from creating ethanol, used to go to a landfill. 
Researchers have found that cows can eat that. So we now work 
with a nutritionist, because it is important that we know 
exactly how much they eat, and make sure that they have it in a 
balanced diet. We can feed that to cows.
    They do the same things with potato peelings in Idaho and 
chocolate in Pennsylvania, and even leftover pizza crusts from 
the Tony's Pizza plant near Kansas.
    Senator Thune. There you go. Thank you. Thank you, Mr. 
Chairman.
    Chairman Roberts. Well, thanks, Coop.
    Senator Casey.
    Senator Casey. Mr. Chairman, thanks very much for 
recognizing me and also for having this hearing. Both you and 
the Ranking Member should be commended for this. I want to 
thank our witnesses.
    As you can notice here, we are all in and out, going to 
different hearings or other meetings, so I am sorry I was back 
and forth. I probably will not get to the whole panel but I 
want to thank you for your testimony, for your presence here, 
and also for helping to teach us things that we need to know. 
In the back-and-forth of today, even in my limited time here, I 
learned a lot, so I appreciate that.
    I want to direct my questions to Secretary Vilsack. I want 
to start with a note about legislation that I worked on for 
years, that we finally got passed in 2016, which is the Global 
Food Security Act. I would not have been the lead Democrat on 
that were it not for Dick Lugar. Dick Lugar, one day we were on 
the Foreign Relations Committee, brought me into it, so I want 
to commend him and we are thinking of him today and his recent 
passing.
    After Dick Lugar left I worked on the bill with Mike 
Johanns, and then Mike Johanns left the Senate and Johnny 
Isakson and I worked together and we finally got it passed.
    What that act will do is codify the Feed the Future 
program, and so it was good that we finally got that over the 
goal line just three years ago.
    I start with that because we know not simply the urgency of 
dealing with food insecurity around the world but also the 
link, as the Director of National Intelligence in 2015, 
reporting the link between food insecurity--or food security 
itself and national security, food insecurity leading to 
greater instability that contributes to the growth of 
extremism, violence, and crime, and frankly, worse.
    So we have made good progress. I am holding in my hand--Mr. 
Chairman, I do not mind if I would ask, at your consent, to 
place in the record a document entitled ``U.S. Policy Road Map: 
A Drive to Transform Global Food and Nutrition Security,'' by 
Kimberly Flowers, January 19, CSIS Briefs. If I could have that 
made part of the record.
    Chairman Roberts. Without objection.

    [The following document can be found on page 96 in the 
appendix.]

    Senator Casey. I will just read one sentence from it. It is 
about eight pages and 38 footnotes. I will not read all of them 
but it said, at the bottom of the first page, from--and I am 
quoting directly--``From 2010 to 2017, U.S. targeted strategies 
and investments in inclusive agricultural growth and nutrition 
programming decreased poverty''--and this is worldwide now--
``decreased poverty by 23 percent and stunting by 32 percent in 
areas where Feed the Future operated,'' that great U.S. 
program, stunting meaning the problem that children have when 
they do not have nutrition.
    So that is a huge accomplishment by the American people, 
with American tax dollars, with a government program. So, if 
anything, we want to continue that, and I know there is 
bipartisan support for that.
    That is the long predicate to my question for Secretary 
Vilsack. When you look at Feed the Future, Food for Peace, the 
newly created U.S. Development Finance Corporation, and other 
efforts to provide adequate tools to take action, other than 
that, and maybe even in addition to that, do you think these 
initiatives provide support for resiliency and food security in 
the face of climate-related disasters, which the U.N. is 
telling us right now are undermining a lot of that progress?
    Mr. Vilsack. Senator, I think anything that can provide 
assistance and help to people that have been devastated by 
their communities being flooded out or destroyed when coastal 
waters rise obviously are important. I think it is also 
important for the U.S. to provide leadership in this area, 
which is why I think this hearing is so important. I think we 
have the opportunity to show the world how you can get 
agriculture to become a net zero emitter, the processes, the 
opportunities that can be created.
    We often have conversations about this as if it were a 
barrier or a drag on agriculture, but I think it is an 
opportunity to open up new revenue streams, new market 
opportunities for American agriculture, and allow American 
agriculture to inform and educate agriculture around the world. 
That is what I hope we would be working toward, and it is not 
just government. It is obviously not just the farmers. It is 
also, as has been mentioned, it is the industry, the ag 
industry and the food industry.
    Just so everybody understands the significance of this 
industry, food and agriculture employs, directly or indirectly, 
43 million people. That is 28 percent of the American work 
force. It impacts 20 percent of the American economy. The 
reason we have security in this country, in part, is because we 
are a food-secure nation. We should never, ever, ever take that 
for granted. Many countries, as you mentioned, that are not 
food secure are places where there are high levels of 
unemployment, high levels of poverty, and high levels of 
dissatisfaction.
    So we are absolutely blessed with American agriculture and 
we need to make sure that we find new ways to keep it 
profitable and keep folks on the farm.
    Senator Casey. Well, thank you, Secretary Vilsack and I 
thank the members of the panel. I appreciate the can-do spirit. 
It is very much American to be able to talk about 
opportunities, not just challenges. I will have some more 
questions for the record, Mr. Chairman, but I want to thank you 
and the Ranking Member for doing this.
    Chairman Roberts. I appreciate that, Senator Casey.
    Secretary Vilsack, and, for that matter, anybody on the 
panel, there is a hill about 10 miles west of Dodge City, 
Kansas, and I would invite you all to come out there. It has 
sort of a flat top to it. Rumor has it that is where Marty 
Robbins used to sing before he went down to El Paso and got 
shot in the back, which was truly unfortunate. He should have 
stayed in Kansas.
    At that site there is a plant that uses effluent from Dodge 
City, Kansas, and National Beef, which goes into four lagoons. 
On the fourth lagoon you have water that is available for 
irrigation. Then the rest of that goes into these large 
balloon-like--I do not know what to call them other than just 
they capture all the methane. The methane then goes to another 
process that processes natural gas, which certainly helps out 
with Dodge City and their energy needs, and, for that matter, 
the whole surrounding area.
    I did not even know that was in operation until I went back 
to Dodge and they said, ``You have got to come out and see 
this.'' That was an astounding kind of accomplishment. Tom, you 
spoke of that. All of you have spoken to that. That is the kind 
of thing--and they did it on their own.
    So I was just amazed at how that touches almost every 
environmental challenge that we could think of and ends up in a 
profit.
    So thank you all. This is going to conclude--I am sorry.
    Senator Stabenow. Mr. Chair, I just wanted to add, if I 
might, that rather than agriculture being on the defense, today 
it is about being on the offense and leading. I mean, the 
reality is that agriculture can be leaders in solving this 
pollution crisis that is affecting all of us by creating energy 
independence. This is about opportunity.
    So I would just encourage all of you to be speaking from 
the standpoint of leadership and opportunity, because 
agriculture can make a huge difference right now in solving a 
multiple set of problems, and I appreciate your coming. Thank 
you.
    Chairman Roberts. This is going to conclude our hearing 
today, but I really want to thank each of our witnesses. You 
are carrying the message, and the proper message, by taking 
time to share your perspectives on climate change and ag 
sector's responses to this challenge. I really thank you for 
taking time out of your very valuable schedule.
    To my fellow members, we ask that any additional questions 
you may have for the record be submitted to the Committee Clerk 
five business days from today, or by 5 p.m. next Wednesday, May 
29th.
    The Committee is adjourned.
    [Whereupon, at 11:22 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              May 21, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 21, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                              May 21, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
